Supreme Court, U.S.
FILED

4

OCT 2 3 2m

ji
OFFICE OF THE CLERK

No.

IN THE SUPREME COURT OF THE
UNITED STATES

C. Holmes, MD,
Petitioner;

v.
Alex M. Azar, II,
Secretary
Of the Department of Health and Human Services (HHS),
Respondent,

ON PETITION FOR A WRIT OF CERTIORARI TO THE
U.S. COURT OF APPEALS FOR THE FOURTH CIRCUIT
PETITION FOR A WRIT OF CERTIORARI

C. Holmes
P.O. Box 187
Sullivans Island, SC 29482
843.883.3010

m£

:4

a

RECEIVED
DEC 3 0 2020

QUESTION PRESENTED
As applied by respondents m this case and m its ongoing pattern and practice,
HIPAA s Privacy Rule cannot pass constitutional muster j respondents' wrongdoing
violates the HIPAA Privacy Rule, deprives patients of more stringent privacy rights
under applicable state law, and places physicians, including the petitioner, in the
untenable position of violating applicable local privacy law in order to be paid for
medically necessary services rendered in good faith
without prior notice and without just cause.

TABLE OF CONTENTS

Opinions Below

1

Jurisdiction

1

Constitutional Provisions at Issue

1

State Statutory Provisions at Issue

2

Facts

3

Reasons for Granting the Writ of Certiorari.

6

Conclusion

31

INDEX TO APPENDICES
Appendix A

USAP4 decision January 27, 2020

Appendix B

US District Court for the District of SC decision March 26,2019

Appendix C

US District Court for the District of SC Petition for Rehearing
May 23, 2019

Appendix D

USAP4 denial of Petition for Rehearing May 26, 2020

Appendix E

Arnold & Porter Opinion Letters

TABLE OF AUTHORITIES
SUPREME COURT

County ofSacramento v. Lewis, 523 U.S. 833, 118 S.Ct. 1708,

140 L.Ed.2d 1043 (1998)..........................................

17

Fuentes v. Shevin, 407 U.S. 67, 82 (1972)

17

Hicks v. Feiock, 108 S.Ct. 1423, 485 U.S. 624, 99 L.Ed. 721,
56 U.S.L.W. 4347 (1988)...................................................

17

Roell v. Withrow, 538 U.S. 580 (2003)

7,10

Wolff v. McDonnell, 418 U.S. 539, 558 (1974)

17

FEDERAL COURTS

Ciox Health, LLC v. Azar (D. D.C. January 23, 2020)

3

Citizens for Health v. Leavitt, 428 F.3d 167 (3d Cir. 2005)

18,20

Darby v. Kemp, 957 F.2d 145, 147 (4th Cir. 1992), rev'd on
other grounds, 61 U.S.L.W. 4679 (U.S. 1993).............

21

Fares v. U.S. I.N.S., 50 F.3d 6 (4th Cir., 1995).....................

21

First Chicago Inti v. United Exchange Co.,
836 F. (2d) 1375 (D.C. Cir.1988)........

15

Gary Plastic Packaging Corp. v. Merrill Lynch, Pierce, Fenner
& Smith, Inc., 756 F. (2d) 230 (2d Cir.1985).......................

15

Lonestar Steakhouse & Saloon v. Alpha ofVa., Inc., 43 F.3rd 922
(4thCir.l995)..................................................................................

14

McDonald v. Centra, Inc., 946 F.2d 1059, 1063 (4th Cir. 1991)
cert, denied, 60 U.S.L.W. 3815 (U.S.1992)......................

21,25,29

Mickalis Pawn Shop, LLC, v. Bloomberg, 465 F.Supp.2d 543
(D.S.C. 2006).........................................................................

14

National Abortion Federation v. Ashcroft, 2004 WL 555701,
at *1-5 (S.D.N.Y. 2004)......................................................

18,20

Roell v. Withrow, 538 U.S. 580 (2003)

7,10

SCMA v. Thompson, 327 F.3d 346, 349 (4th Cir. 2003), cert,
denied 540 U.S. 981, 124 S. Ct. 464 (2003)....................

20,25

Texas v. U.S., 4:18'CV-00167 (filed December 14, 2018)

8

Watson v. Southern Ry. Co., 420 F. Supp. 483
(D.S.C. 1975)..............................................

14

Wimmer v. Cook, 11 A. F.2d 68 (4th Cir., 1985)

7,10

Fares v. U.S. I.N.S., 50 F.3d 6 (4th Cir., 1995)

21

STATE COURTS

Baughman v. AT&T Co., 410 S.E.2d 537, 306 S.C. 101 (1991)....

14,15

Dublin Sportswear v. Charlett, 485 Pa. 633
403 A.2d 568 (1979)..............................

9

Fares v. U.S. I.N.S., 50 F.3d 6 (4th Cir., 1995)

21

H.D. v. Pa. Dept. Pub. Welfare, 751 A.2d at 1216
(Pa. Commw. Ct. 2000)..................................

11

Holloman v. McAllister, 289 S.C. 183, 345 S.E. (2d) 728 (1986)...

14

Meetze v. Associated Press, 230 S.C. 330, 95 S.E.2d 606 (1957)...

27

Moore v. Moore, 376 S.C. 467, 657 S.E.2d 743 (2008)

17

Newman Development Group ofPottstown, LLC v. Genuardi's
Family Market, Inc., 52 A.3d 1233 (Pa. 2012)...................

9

SCBME v. Hedgepath, 480 S.E.2d 724 (S.C. 1997)
Trowell v. South Carolina Department ofPublic Safety,
384 S.C. 232, 681 S.E.2d 893 (Ct.App.2009).........

4,26,28,29

13

OPINIONS BELOW
The unpublished Order on appeal in this matter is dated January 27, 2020.
Petition for Rehearing was denied on May 26, 2020. The March 19, 2020, order of this
Court provides for extension to file 150 days after the Petition for Rehearing was denied.

JURISDICTION

The United States Court of Appeals Petition for Rehearing was denied by order
filed May 26, 2020. This Court’s jurisdiction rests on 28 U.S.C. § 1254(l).

CONSTITUTIONAL PROVISIONS AT ISSUE
Amendment I
Religion and Expression
Congress shall make no law respecting an establishment of religion, or prohibiting
the free exercise thereof! or abridging the freedom of speech, or of the press! or the right
of the people peaceably to assemble, and to petition the Government for a redress of
grievances. No Soldier shall, in time of peace be quartered in any house, without the
consent of the Owner, nor in time of war, but in a manner to be prescribed by law

Amendment III
Quartering Soldiers
No Soldier shall, in time of peace be quartered in any house, without the consent of

1

the Owner, nor in time of war, but in a manner to be prescribed by law.

Amendment IV
Search and Seizure
The right of the people to be secure in their persons, houses, papers, and effects,
against unreasonable searches and seizures, shall not be violated, and no Warrants shall
issue, but upon probable cause, supported by Oath or affirmation, and particularly
describing the place to be searched, and the persons or things to be seized.

Amendment IX
Unenumerated Rights
The enumeration in the Constitution, of certain rights, shall not be construed to
deny or disparage others retained by the people.

STATE STATUTORY PROVISIONS AT ISSUE
S.C. Code § 44-115-40
Except as otherwise provided by law (with limited exceptions not applicable here),
a physician shall not honor a request for release of copies of medical records without
receiving express written consent of the patient or person authorized by law to act on
behalf of the patient. S.C. Code 44-115-40 (emphasis supplied).

2

FACTS

There is conflict between Circuits regarding disparate rulings under the same or
similar fact patterns and this Court is requested to grant review regarding consistency.
Specifically, the D.C. Circuit addressed unlawful acts by respondents in the intervening
case of Ciox Health, LLC v. Azar (D. D.C. January 23, 2020). It is respectfully submitted
small practitioners are disproportionately affected by respondent’s unlawful acts as was
the copy center in Ciox. Id. In the instant case, the petitioner physician strives to provide
high quality, cost effective, individualized, compassionate care to each and every patient
and has practiced in the same location since completion of medical school, internship, and
residency. The physician’s practice is a non-covered entity under HIPAA, and is
recognized by Medicare/CMS as a small practice qualified for paper claim waiver as
documented in the record. At all times pertinent to the issues herein, the revisions to
HIPAA after 2011 were not in effect and at no time did Respondent’s Business Associate
provide a valid HIPAA Business Associate Agreement or any Business Associate
Agreement at all and none is found in the record.
Because the physician’s practice is a non-covered entity under HIPAA, release of
privileged healthcare information (PHI) is governed by state law. While the physician’s
practice is a non-covered entity under HIPAA, it is important to note that the express
provisions of HIPPA’s Privacy Rule itself incorporate state law where state protections of
privileged health information are more stringent as is the case in South Carolina. See
attached Arnold & Porter (A&P) opinion letters.
With HIPAA, Congress intended to protect small practices by providing that small

3

practices are noircovered entities under HIPAA. As a non-covered entity under HIPAA,
the physician’s practice is subject to the same law in effect before the HIPAA Privacy
Rule was enacted, which has always required express written consent and authorization
for release of medical records. Local law in South Carolina provides^

Except as otherwise provided by law (with limited exceptions none of which apply here), a
physician shall not honor a request for release of copies of medical records without the
receipt of express written consent of the patient or person authorized by law to act on
behalf of the patient. S.C. Code 44-115-40 (emphasis supplied).

The plain language of the statute requires Respondent to provide express written consent
of the patient for release of copies of medical records. Respondents failed to comply with
applicable state law by failing to provide express written consent. PHI is the patient’s
information, not the physician’s, and the petitioner physician is not allowed by law to
release copies of medical records unless Respondent provides express written consent.
The record reflects the physician timely notified Respondent and the contractors/sub­
contractors of the applicable local law; Respondent unreasonably failed and refused to
respond. Respondent and/or its contractors/subcontractors had a duty to timely respond
to petitioner’s timely notice and violated Federal law, state law, and its own regulations.
Respondents made false, deceptive, and/or misleading statements to petitioner’s
established and new patients. The letter and spirit of the law should be construed in the
patients’ favor as patients are the intended beneficiaries. The physician is happy to
comply with requests in accordance with applicable local law. To the extent respondents’
wrongdoing without notice and without just cause disproportionately threatens the
petitioner’s and small practitioners’ ability to earn a living and practice one’s profession,
4

and the record reflects it does, these issues of great public importance are capable of
repetition, capable of evading judicial review, and incapable of adequate remedy on
appeal.
INTRODUCTION
In February 2019, the Great Statesman, Rep. Elijah Cummings, may he rest in
peace, observed, “When we're dancing with the angels, the question will be asked, in
2019, what did we do to make sure we kept our democracy intact?” Along with Rep. John
Lewis, may God rest his soul, it is fitting to remember these lifetimes of steadfast bravery
and unremitting courage. It is fitting, as well, to remember the beginnings of that
democracy. The framers of our state and Federal Constitutions risked life, limb, and
liberty to escape abuses by the British government.
Both state and Federal constitutions were deliberately crafted to foreclose those
abuses here. The framers did not need computers, tablets, or cell phones to discern the
basic tenets of fundamental fairness and due process. An impartial decision-maker was
seen as a non-negotiable requirement for preventing such abuses. The letter and spirit of
our cherished Constitution categorically prohibit deprivation of fife, liberty, or property
without due process of law, nor shall any person be denied equal protection of the laws.
The right of trial by jury shall be preserved inviolate. As a corollary, another
requirement, deemed mandatory and prohibitory, is that no single individual, whether
British monarch, government official, or HHS Secretary shall have absolute authority
over a citizen’s life, liberty, or property without being subject to the right of appeal with
meaningful judicial review.
5

In the instant case, plaintiff timely requested the substantial right of de novo
determination by an Article III Judicial Officer without Report & Recommendation
(R&R) in the district court. There are examples of pro se hard copy filings subjected to a
magistrate dispensing separate second class so-called justice, without consent, with
impermissible delegation, without statutory authority, and/or without meaningful
judicial review, gleefully and cavalierly used as a trap for the unwary pro se litigant.
Significantly and materially, there is an abundant body of law decisively declaring
separate is never equal. The acknowledged systemic institutional biases against
minorities and/or pro se litigants threaten our democracy and feed the appearance of the
proverbial “rigged” system. In the pro se setting, this issue is of exceptional importance as
it is capable of repetition, capable of evading judicial review, and incapable of adequate
remedy on appeal. As set forth more fully below, it is respectfully submitted our
democracy depends on the basic tenets of fundamental fairness and due process just as
much, if not more so, in this age of cell phones, tablets, computers, and uncertain times.
Judge J. Waties Waring, the renowned crafter of divine dissents lying in repose in
Charleston, is turning over in his grave at the historically persistent lawlessness of the
Four Corners of Law in the courthouse bearing his name.

REASONS FOR GRANTING THE WRIT OF CERTIORARI

I. Threshold Matter

Without being disagreeable, it is respectfully submitted there is disagreement, and
6

as set forth more fully herein, there is no jurisdiction for the Report & Recommendation
(R&R) or its adoption because there is no consent to a magistrate and there is timely
express request for appeal to and disposition by an Article III Constitutional Officer
without R&R on dispositive motion. Because there is no jurisdiction for the Report and
Recommendation (R&R), it cannot and, in good faith, should not be adopted, including
but not limited to, impermissible delegation adversely affects and/or prejudices lower
court decisions. Petitioner is prejudiced thereby. The plaintiff timely appealed in the
district court for the substantial right to the Constitutional protection of de novo
disposition by an Article III Judicial Officer without R&R on a dispositive motion and
respectfully submits there can be no jurisdiction without consent. Wimmer v. Cook, 11A
F.2d 68 (4th Cir., 1985); Roell v. Withrow, 538 U.S. 580 (2003). Magistrate Report &
Recommendation (R&R) without consent jeopardizes/impairs litigants’ substantial rights
including but not limited to, full and fair meaningful appellate review. To the extent a
substantial right, including meaningful appellate review, is or could be diminished for
pro se litigants by magistrate R&R on dispositive motions, and the record reflects that it
is diminished in this and other cases, magistrate R&R without consent on dispositive
motion cannot pass constitutional muster. Petitioner is prejudiced thereby. But for
illegitimate R&R, the outcome should have and would have resulted m a decision in
petitioner’s favor.
Petitioner seeks de novo review and/or remand regarding intervening events
including but not limited to, change of position by the DO J supporting petitioner’s
position that Respondent’s pattern and practice in its interpretation/application of the

7

Affordable Care Act (ACA), HIPAA, and/or pertinent parts is outside the scope of
authority and/or unconstitutional. Moreover, the R&R should be reversed due to clear
error. Specifically, clear error is based on, including but not limited to, statutory
construction and the failure to address applicable local law. Accordingly, the lower court
order should be reversed.

II. Petitioner seeks de novo review and/or remand regarding intervening events including
but not limited to, change of position by the Department of Justice (DO J) supporting
petitioner’s position that respondent’s pattern and practice in its
interpretation/application of the Affordable Care Act (ACA), HIPAA, and/or pertinent
parts is outside the scope of authority and/or unconstitutional.

Petitioner seeks de novo review and/or remand regarding intervening events
including but not limited to, change of position by the Department of Justice (DOJ)
supporting petitioner’s position that Respondent’s pattern and practice in its
interpretation/application of the Affordable Care Act (ACA), HIPAA, and/or pertinent
parts is outside the scope of authority and/or unconstitutional. The DOJ has now taken
the position it supports the following ruling:

For the reasons stated above, the Court... declares the individual mandate, 26
U.S.C. § 5000A(a), UNCONSTITUTIONAL. Further, the Court declares the remaining
provisions of the ACA, Pub. L. 111-148, are INSEVERABLE and therefore INVALID.
Texas v. U.S., 4:18-CV-00167 (filed December 14, 2018).

As was widely reported on March 26, 2019, a letter from the Department of Justice
annouhced the shift in support of a district court judge's ruling that the law is
unconstitutional (www.npr.org > 03/26/2019). Accordingly, petitioner seeks de novo
8

review and/or remand regarding intervening events including but not limited to, change
of position by the Department of Justice (DOJ) supporting petitioner’s position. The lower
court order is unsustainable.

III. Ambiguous, conflicting, and/or unclear rules regarding Report &
Recommendation(R&R)
As a threshold matter, ambiguous, conflicting, and/or unclear rules regarding R&R
over a busy time during the Holidays is inconsistent with case law favoring
determination on the merits. By analogy, "the quality of justice must not be subordinated
to arbitrary insistence upon compliance with procedural rules” in this case with no legal
prejudice to the other side where the record reflects the objections were timely served by
mail and timely filed in good faith by fax on November 16, 2018. Dublin Sportswear v.
Charlett, 485 Pa. 633, 639, 403 A.2d 568, 571 (1979). In the case of Newman
Development Group ofPottstown, LLC v. Genuardi's Family Market, Inc., 52 A.3d 1233
(Pa. 2012), the Pennsylvania Supreme Court ruled that the Superior Court was wrong to
throw out the appeal on what it said was an unclear rule suggesting conscious or
subconscious reduction of caseload as a driving force. Petitioner respectfully submits the
lower court overlooks and/or misconstrues the directions for mailing in the Report &
Recommendation (R&R) which support petitioner’s timely filing and good faith efforts on
a non-jurisdictional purported deadline by approximately one day for objections to R&R.
Moreover, petitioner respectfully asserts clear error of material fact and law support
reversal of the R&R. Petitioner requests denial of respondents’ motions and requests
compliance with Rule 45, Fed. R. Civ. P., and issuance of subpoenas for relevant
9

discovery requests, including but not limited to, material EOB’s (explanation of benefits)
for claims. Accordingly, the lower court decision should be reversed.

IV. There is no jurisdiction for the Report & Recommendation (R&R).
Jurisdiction cannot be waived. In the March 26, 2019, Order, the referral to a
magistrate is based on clear error of material fact and law: Local Civil Rule 73.02(B)(2)(g)
(D. S.C.) is inapplicable and constitutes prejudicial error. To the extent a Local Rule is
interpreted or applied to provide for referral without consent for magistrate’s R&R on a
dispositive motion, that referral is inconsistent with constitutional, statutory, and/or case
law. Further, there is no consent for referral to a magistrate. Without consent, there is
no jurisdiction for the R&R or its adoption. Moreover, the petitioner’s opposition to
respondents’ motions expressly requested disposition by the Presiding District Court
Judge, an Article III Constitutional Judicial Officer (not a magistrate) without R&R on
dispositional motion. Wimmer v. Cook, 114 F.2d 68 (4th Cir., 1985); Roell v. Withrow,
538 U.S. 580 (2003). The magistrate’s R&R impermissibly adversely affected and/or
prejudiced the matter. But for the prejudicial error the outcome should have and would
have resulted in a decision favorable to the petitioner. The issues are capable of
repetition and capable of evading judicial review. Accordingly, reversal is respectfully
requested.

10

V. Petitioner respectfully requests nunc pro tunc filing

By analogy, the case of Bureau Veritas N. Am., Inc. v. Dep't ofTransp., 127 A.3d
871 (Pa. Commw. Ct., 2015) provides the following guidance:
The party seeking nunc pro tunc filing must show
1) that extraordinary circumstances, involving fraud or breakdown in the
administrative process or non-negligent circumstances related to the party, its counsel or
a third party, caused the untimeliness;
2) that it filed the document within a short time period after the deadline or date
that it learned of the untimeliness; and
3) that the respondent will not suffer prejudice due to the delay. Cook, 671 A.2d at
1131; C.E. v. Department ofPublic Welfare, 97 A.3d 828, 832 (Pa.Cmwlth.2014); H.D.,
751 A.2d at 1219. BV has satisfied all of these requirements.
Bureau Veritas N. Am., Inc. v. Dep't of Transp., 127 A.3d 871 (Pa. Commw. Ct., 2015).

In the instant case, extraordinary circumstances warrant nunc pro zh/nc relief.
Specifically, there was a misunderstanding or miscommunication from a staff member of
the Clerk’s office regarding the statement that after the deadline, three days are allowed
on dispositive motions for pro se litigants. Parties are advised to consult the Clerk’s
office with such questions. Moreover, what the staff member said is consistent with the
Report and Recommendation (R&R) itself, which authorizes mailing the objections and
provides the mailing address of PO Box 835, Charleston, SC 29402. It does not say the
R&R must be mailed before the deadline in order to be timely. Petitioner respectfully
submits, under these circumstances, the information is unclear, ambiguous, and/or
conflicting. The document was timely served and there is no legal prejudice to the other
side. Per the successful fax transmission receipt, the petitioner timely filed by fax on
11

November 16, 2019, which establishes good faith, non-negligent circumstances, and if
deemed late, the hard copy was filed as soon as possible within a short time. Accordingly
petitioner respectfully requests nunc pro tunc relief..

VI. It appears the lower court was aware the objections were filed by fax on November 16,
2019, but did not address it.

It appears the lower court was aware the objections were timely served by mail and
filed in good faith by fax on November 16, 2019. This material fact supports petitioner’s
good faith efforts and establishes no legal prejudice. Petitioner respectfully submits the
filing of objections on November 16, 2019, by fax was emergent. Petitioner is informed
and believes that the short window of time during Thanksgiving week for a dispositional
filing involving meritorious claims with no negligence constitutes emergency for the
petitioner. Further, there is precedent because the petitioner has filed by fax before at
843.579.1402. Accordingly, petitioner respectfully submits the objections are timely.
Moreover, a staff member of the Clerk’s office stated that three days are allowed
after the deadline on dispositive motions for pro se litigants. The Report and
Recommendation (R&R) itself anticipates mailing the objections and provides the mailing
address of PO Box 835, Charleston, SC 29402; as such, filing by mail plus three days
would have been during the week of Thanksgiving. Rule 6, Fed. R. Civ. P. (FRCP). The
Court was closed for Thanksgiving after November 20, 2018, to November 26, 2018. Rule
6, Fed. R. Civ. P. (FRCP). There is no suggestion there would or could be disposition
during the week of Thanksgiving. The next date when the Court was open was

12

November 26, 2018. The United States Post Office advises that delivery of mail around
the Holidays may be delayed, therefore, out of an abundance of caution, petitioner timely
filed amended objections to ensure compliance within the three days. Delivery of the
mail to that address, in fact, has taken more than three days in petitioner’s experience.
The opinion suggests an absurd result wherein receipt through the mail is timely,
however, receipt before delivery of the mail, as in this case, is not. By analogy, the case of
Trowell v. South Carolina Department ofPublic Safety is instructive. Trowell v. South
Carolina Department ofPublic Safety, 384 S.C. 232, 681 S.E.2d 893 (Ct.App.2009). The
South Carolina Court of Appeals observed that the decision “arbitrarily created a trap for
the unwary.” Id. at 237, 681 S.E.2d at 896. The court held that the litigant’s substantial
rights were prejudiced due to the arbitrary and capricious nature of the interpretation.
Id. at 237, 681 S.E.2d at 896. Accordingly, petitioner respectfully requests reversal of the
lower court order.

VII. In the alternative and for good cause shown, petitioner respectfully requests
consideration of enlargement of time for objections filed in good faith and without legal
prejudice.

In the alternative and for good cause shown, petitioner respectfully requests
consideration of enlargement of time for objections. Petitioner respectfully asserts the
objections are timely submitted in good faith and if deemed late, then substantially
compliant. By analogy, the Court has broad discretion under Rule 6(b)(1), Fed. R. Civ. P.
See Lonestar Steakhouse & Saloon v. Alpha ofVa., Inc., 43 F.3rd 922, 929

13

(4thCir.l995).”’[A]n application under Rule 6(b)(1) normally will be granted in the
absence of bad faith or prejudice to the adverse party.’” Mickalis Pawn Shop, LLC, v.
Bloomberg, 465 F.Supp.2d 543, 545 (D.S.C. 2006) (citations omitted). The petitioner
respectfully submits there is no legal prejudice to the other side, none has been claimed
by anyone, and the request is hereby entered in good faith. In addition, there is
precedent because the petitioner has filed by fax before at 843.579.1402. Petitioner is not
aware, and there has been no notice, of a change in the interim. Accordingly, if deemed
late, petitioner requests minimal enlargement of time on a dispositional order with no
legal prejudice.

VIII. Summary judgment should be denied as premature

The petitioner made timely requests for the EOB’s (explanation of benefits) which
the ALJ unreasonably denied. Petitioner is prejudiced because request for relevant
evidence supporting petitioner’s claims was denied. This issue is capable of repetition
and capable of evading judicial review. The case of Baughman v. AT&T Co., 410 S.E.2d
537, 306 S.C. 101 (1991) states the following;

Since it is a drastic remedy, summary judgment "should be cautiously invoked so that no
person will be improperly deprived of a trial of the disputed factual issues." Watson v
Southern Ry. Co., 420 F. Supp. 483, 486 (D.S.C. 1975); see also Holloman v. McAllister
289 S.C. 183, 186, 345 S.E. (2d) 728, 729 (1986) ("an extreme remedy to be cautiously
invoked"). This means, among other things, that summary judgment must not be granted
until the opposing party has had a full and fair opportunity to complete discovery. 10A
Wright & Miller, Federal Practice and Procedure § 2741, p. 543 (1983); 6 Moore's Federal
Practice 1 56.02[6], p. 56-39 (2d) ed. 1990); see, e.g., First Chicago Int'l v. United
14

Exchange Co., 836 F. (2d) 1375 (D.C. Cir.1988); Gary Plastic Packaging Corp. v. Merrill
Lynch, Pierce, Fenner & Smith, Inc., 756 F. (2d) 230 (2d Cir.1985). (Emphasis supplied.)
Baughman v. AT&T Co., 410 S.E.2d 537, 306 S.C. 101 (1991).
For good cause and for full and fair disposition on the merits, petitioner respectfully
submits respondents’ motions should be denied as premature and requests subpoenas for
relevant discovery requests along with an opportunity for discovery.
The record reflects the petitioner made timely requests for discovery of records and
explanation of benefits (EOBs) for all challenged claims regarding, including but not
limited to, false, deceptive, misleading information to petitioner’s established and new
patients adversely affecting the physician-patient relationship. Petitioner requested
copies of the EOBs and other information to document material irregularities, including
the failure to timely process and pay claims and/or disinformation to established and new
patients, by respondents’ contracting/subcontracting agents. In addition, the petitioner
needed clarification of the reasons for denying claims as some, if not all, resulted in
multiple EOBs with different explanations for the same claim. The documents requested
are material to establishing that all claims, both Attachment A and B claims, were timely
appealed. 1 Accordingly, the Respondents’ motions to dismiss and for summary judgment
should be held in abeyance pending discovery.
1
The record reflects the Respondents’ contractual/subcontractual agents contacted
the Petitioner with notification that no appeals were necessary because the claims were
all being processed for payment. Reliance on that representation thwarted and/or pre­
vented some, if not all, appeals in Attachment A. See copy of record memorializing Re­
spondent’s notice that appeal was unnecessary, which is contained in the record on ap­
peal. That memorialization, generated in the ordinary course of business, and the au­
thenticating affidavit are admissible as written documentation of the representations
made by the (sub)contractors and constitute additional evidence in the record supporting
discovery.
15

IX. The Medicare Appeals Council (MAC) found the AU abused his discretion, and the
ALJ wrongfully denied petitioner's timely request for in-person hearing.

The ALJ wrongfully denied petitioner’s timely request for in-person hearing with
travel to the hearing arranged by petitioner at petitioner’s expense. The ALJ represented
that physicians are entitled to an in-person hearing, but unreasonably refused to comply
with the physician’s request for in-person hearing. Petitioner was not provided with
meaningful opportunity to be heard on respondent’s wrongdoing and wrongful taking of
patients’ and physicians’ property, individual, and/or privacy rights, including but not
limited to, rights to covered services and wrongful taking of fees for medically necessary
physician services rendered in good faith. Respondent’s motions should be denied.
The Medicare Appeals Council (MAC) found that the administrative law judge
(ALJ) abused his discretion. We respectfully submit that the ALJ also abused his
discretion by, including but not limited to, denial of the timely request for in-person (not
telephone) hearing, denial of timely request for discovery for material documents, thereby
denying full and fair hearing and meaningful review, and failure to even address
governing local law. Similarly, due to the express and implied deference given to the ALJ
and the importance of these issues, the right to an in-person hearing, timely requested,
should be respected. This Court should find and the substantial evidence in the record
reflects that the ALJ’s abuse of discretion resulted in prejudice to the physician’s and to
patients’ rights. But for that prejudice, the result should have and would have been a
different outcome in the physician’s favor. Respectfully, the physician’s right to request
an in-person (not telephone) hearing should be upheld. See Hicks v. Feiock, 108 S.Ct.
16

1423, 485 U.S. 624, 99 L.Ed. 721, 56 U.S.L.W. 4347 (1988). “The touchstone of due
process is protection of the individual against arbitrary action of government,” Wolff v.
McDonnell, 418 U.S. 539, 558 (1974), or denial of fundamental procedural fairness, see,
e.g., Fuentes v. Shevin, 407 U.S. 67, 82 (1972) (the procedural due process guarantee
protects against “arbitrary takings”). County ofSacramento v. Lewis, 523 U.S. 833, 118
S.Ct. 1708, 140 L.Ed.2d 1043 (1998). See Moore v. Moore, 376 S.C. 467, 657 S.E.2d 743
(2008) (procedural due process requires (l) adequate notice; (2) adequate opportunity for
a hearing; (3) the right to introduce evidence! and (4) the right to confront and crossexamine witnesses). See U.S. Const., Article I, sec. 9 and 10; U.S. Const, amend. I, IV, V,
VII, and XIV; S.C. Const, art. I, sec. 2, 3, 4, 10, and 14; S.C. Const, art. V, sec. 4! S.C.
Const, art. V, sec. 5.

X. As applied by respondents in this case, HIPAA’s Privacy Rule cannot pass
constitutional muster; respondents’ wrongdoing violates the HIPAA Privacy Rule,
deprives patients of more stringent privacy rights under applicable state law, and places
physicians, including the petitioner in the untenable position of violating applicable local
law in order to be paid for medically necessary services rendered in good faith without
prior notice and without just cause.

"(T)he Secretary [of Health and Human Services ("HHS")] has repeatedly
emphasized that...[HIPAA] defers to states that impose stringent consent requirements"
that "individual authorization [is] generally...more protective of privacy interests than
the lack of such authorization", and that HIPAA "leaves pre-existing state law privacy
rights in place" and does not "authorize or permit disclosures that state laws would
otherwise prohibit." Citizens for Health v. Leavitt, 428 F.3d 167, 181-82, n.16 (3d Cir.
17

2005). HIPAA "give[s] preemptive effect to State laws that would otherwise be in
effect...to the extent they conflict with and are more stringent than the requirements
promulgated under...HIPAA", it is not "the intent of...[HIPAA] to give an effect to State
law that it would not otherwise have in the absence of...[HIPAA's antipreemption
provision]", "HHS [has] interpreted the antipreemption provision to merely maintain the
status quo in states in which more stringent privacy regulations existed prior to HIPAA",
and S.C. Code § 44-115-40 remains the law in areas in which South Carolina has the
authority to regulate. National Abortion Federation v. Ashcroft, 2004 WL 555701, at *1*5
(S.D.N.Y. 2004) (emphasis supplied). South Carolina has the authority to regulate noncovered entities under HIPAA as in this case.
As applied by respondent in this case, HIPAA cannot pass constitutional muster;
respondent’s wrongdoing violates the HIPAA Privacy Rule, which incorporates the more
stringent privacy rights under state law in South Carolina, deprives patients of
individual, privacy, and property rights, and places physicians, including the petitionerphysician, in the untenable position of violating applicable state law in order to be paid
for medically necessary services rendered in good faith without prior notice. No prior
notice of change or “complex review” was given by respondent, and there has been no
change in applicable state law. Respondent’s wrongdoing consists of wrongful taking of
patients’ property, wrongful deprivation of privacy rights in protecting medical records,
wrongful interference with established physician-patient relationships, and/or wrongful
interference with patients’ access to their physician of choice. Constitutionality of HIPAA
is challenged as applied in this case to the claims in both Attachment A and B. See- 45
C.F.R. § 160.203.
18

XI. The dispute herein is a matter of statutory construction.

Section 264(c)(2) of the HIPAA statute provides that the privacy regulations
promulgated by HHS “shall not supersede a contrary provision of State law, if the
provision of State law imposes requirements, standards, or implementation specifications
that are more stringent than the requirements, standards, or implementation
specifications imposed under the regulation.” HIPAA § 264(c)(2), 110 Stat.2033-34. The
HHS regulations provide that a state law is "more stringent" than HIPAA if it "provides
greater privacy protection for the individual who is the subject of the individually
identifiable health information." 45 C.F.R. § 160.202. The regulation specifies that a state
law is "more stringent" if it meets one or more of the following criteria:

a. the state law prohibits or restricts a use or a disclosure of information where
HIPAA would allow it,
b. the state law provides an individual with "greater rights of access or
amendment" to his medical information than provided under HIPAA.
c. the state law provides an individual with a "greater amount of information"
about "a use, a disclosure, rights, and remedies,”
d. the state law provides for the retention or reporting of more detailed information
or for a longer duration, or
e. the state law "provides greater privacy protection for the individual who is the
subject of the individually identifiable health information."
45 C.F.R. § 160.202.

In this case, the state law, S.C. Code § 44-115-40, "provides greater privacy protection for
the individual who is the subject of the individually identifiable health information." 45

19

C.F.R. § 160.202.
"Individually identifiable health information" refers to information that relates to
the past, present, or future physical or mental health or condition of an individual, the
provision of health care to an individual, or the past, present, or future payment for the
provision of health care to an individual, and either (i) identifies the individual; or (ii)
with respect to which there is a reasonable basis to believe that the information can be
used to identify the individual. 42 U.S.C.A. § 1320d(6)(B). A patient’s medical record
contains “individually identifiable health information." 45 C.F.R. § 160.202.
Comparisons between state law and HIPAA’s Privacy Rule show that the state law is
more stringent therefore, HIPAA’s Privacy Rule preserves South Carolina’s more rigorous
protections. 45 C.F.R. § 160.203. Specifically, receipt of express, not general, written
consent signed by the patient is required before honoring a request from third parties,
including the respondents or respondents’ sub-contractors/contractors, for release of
copies of the patient's medical records under these circumstances. S.C. Code § 44-115-40.
See:SCMA v. Thompson, 327 F.3d 346, 349 (4th Cir. 2003), cert, denied 540 U.S. 981, 124
S. Ct. 464 (2003); Citizens for Health v. Leavitt, 428 F.3d 167, 181-82, n.16 (3d Cir. 2005);
National Abortion Federation v. Ashcroft, 2004 WL 555701, at *1-5 (S.D.N.Y. 2004).

XII. Attachment A and B claims should not be dismissed because the dispute herein is a
matter of statutory construction, one of several exceptions to the requirement that parties
exhaust administrative remedies.

The dispute herein is a matter of statutory construction involving state law,
HIPAA, and HIPAA’s Privacy Rule. Statutory construction is one of several exceptions to
20

the requirement that parties exhaust administrative remedies. McDonald v. Centra, Inc.,
946 F.2d 1059, 1063 (4th Cir. 1991). “A party is not required to exhaust administrative
remedies if (l) the dispute concerns statutory construction; (2) using administrative
procedures would cause irreparable injury; (3) resorting to administrative procedures
would be futile; (4) administrative remedies would be inadequate; or (5) the
administrative decision would go unreviewed. See generally Darby v. Kemp, 957 F.2d
145, 147 (4th Cir.1992), rev'd on other grounds, 61 U.S.L.W. 4679 (U.S.1993); McDonald
v. Centra, Inc., 946 F.2d 1059, 1063 (4th Cir. 1991), cert, denied, 60 U.S.L.W. 3815
(U.S.1992).” Fares v. U.S. I.N.S., 50 F.3d 6 (4th Cir., 1995). Specifically, statutory
construction of HIPAA and the following state law is at issue:

Except as otherwise provided by law (with limited exceptions none of which apply here), a
physician shall not honor a request for release of copies of medical records without
receiving express written consent of the patient or person authorized by law to act on
behalf of the patient. S.C. Code 44-115-40 (emphasis supplied).

HIPAA expressly preserves more stringent state laws, and the above statute provides
more stringent protections for medical records. The plain language of the above statute
requires the respondent/contractor/subcontractor(s) to provide express written consent
signed by the patient for release of copies of medical records in South Carolina from a
non-covered entity under HIPAA. Respondents violated applicable state law by failing to
provide express written consent signed by the patient as timely requested by the
petitioner-physician. PHI is the patient’s information, not the physician’s, and the
petitioner-physician herein is not allowed by law to release copies of medical records
without express written consent signed by the patient. The letter and spirit of the law

21

should be construed in the patients’ favor, the intended beneficiaries. As such, statutory
construction provides subject matter jurisdiction for both Attachment A and Attachment
B claims. Accordingly, respondents’ motions should be denied.

XIII. A valid HIPAA Business Associate Agreement (BAA) was not provided.

At all times related to the claims herein, the revisions to HIPAA after 2011 were
not in effect. The request for release of medical records was not from the covered entity,
but from a Business Associate. The Business Associate failed to provide a valid HIPAA
Business Associate Agreement (BAA) and none is found in the record. Moreover, the
subcontractor’s and/or subcontractor of a subcontractor’s role or intended role in
unspecified “complex review” with alleged unauthorized access to the patients’ medical
records is material and supports request for discovery. The respondent, contractor,
and/or subcontractor(s) did not provide a valid HIPAA Business Associate Agreement
(BAA) or any Business Associate Agreement at all. The patient, along with the physician
on patients’ behalf, is entitled to proof of a valid BAA ensuring certain security measures
and other features, which respondents failed to provide. Where respondent’s BAA fails to
require the BA to comply with HIPAA’s Privacy Rule, the BA, i.e., contractor,
subcontractor, and/or subcontractor(s) of a subcontractor, is not authorized to access PHI.
The Business Associate, contractor, and/or subcontractor(s) failed to provide a valid
HIPAA Business Associate Agreement under HIPAA’s Privacy Rule, then in effect.
Accordingly, respondents’ motions should be denied or held in abeyance pending

22

discovery.

XIV. Based on years of claim submission and no notice of change, the “minimum
necessary” protected health information (PHI) for billing purposes is established and was
provided as evidenced by the fact the claims were paid.

Moreover, respondents violated HIPAA’s own “minimum necessary” requirements
regarding PHI by requesting more than the “minimum necessary,” i.e., the entire medical
record, rather than the usual and customary minimum required in this setting as
established through the ordinary course over many years as well as those established for
respondent, a covered entity, by HIPAA’s own “minimum necessary” requirements. See45 CFR 164.502, 164.514. If the “minimum necessary” had not been provided, the claims
would not have been paid, which corroborates petitioner’s claims. The entire medical
record is not the usual and customary “minimum necessary” in this setting. Medical
associations advise physicians to follow applicable law, which requires a valid
authorization signed by the patient for release of copies of medical records. Medical
associations counsel physicians that the determining principle is that PHI belongs to the
patient. If there is any doubt, the physician is legally and ethically bound to err in favor
of the intended beneficiary, the patient. “A physician acts ethically when she provides
confidential information to others ... as authorized by the patient.” SCBME v.
Hedgepath, 480 S.E.2d 724 (S.C. 1997).
The “minimum necessary” PHI for billing purposes for the non-covered entity is
established over decades by the usual and customary PHI for claims processing by the
physician. But for submission of the “minimum necessary” information establishing

23

medical necessity, the claims would not have been paid. There was no prior notice of any
change requiring the entire medical record for billing purposes as compared to the usual
and customary information. As a non-covered entity under HIPAA, there has been no
change. To the extent respondent is arguing that notice on some website is reasonable, it
is not reasonable to provide notice on a website to small practices and non-covered
entities under HIPAA, and there is no such notice in the record. The record reflects
respondents did provide other notices to the physician at the designated contact
information, which is at the same location and in the usual and customary manner
provided by respondent for many years. By routinely expanding the “minimum
necessary” to include the patients’ entire medical record of PHI, respondent engages in
wrongdoing wholly inconsistent with and effectively negating the “minimum necessary”
requirement and/or the letter and spirit of HIPAA’s Privacy Rule, then in effect.
Respondents’ motions should be denied.

XV. Equitable estoppel.

Evidence in the record documents the physician requested re determination,
reconsideration, review, and/or appeal of the claims in Attachment A, which discovery
should confirm. Contained in the record on appeal, the copy of the memorialization of
respondent’s notice that the appeal was unnecessary documents petitioner’s request for
appeal of claims, both A and B. That memorialization, generated in the ordinary course
of business, and the authenticating affidavit are admissible as written documentation of
the representations made by the (sub)contractor and constitute written evidence in the

24

record documenting petitioner’s appeal of claims in Attachment A and B. Moreover,
statutory construction is one of several exceptions to the requirement that parties
exhaust administrative remedies. McDonald v. Centra, Inc., 946 F.2d 1059, 1063 (4th Cir.
1991). Affirmative misconduct by the respondent and/or agents is established by the
record, including but not limited to: attempt to thwart/prevent petitioner’s appeal,
violations of requirements for timely processing and handling of claims, violations of the
“minimum necessary” requirement for billing purposes by requiring the entire medical
record, violations of HIPAA’s Privacy Rule which incorporates state law because South
Carolina law is more stringent than HIPAA’s Privacy Rule, violations of South Carolina
privacy law for non-covered entities under HIPAA, and others. See- SCMA v. Thompson,
327 F.3d 346, 349 (4th Cir. 2003), cert, denied 540 U.S. 981, 124 S. Ct. 464 (2003). The
respondent/contractor knew or should have known it was wrong to thwart/prevent appeal
and to violate more stringent state privacy laws. The respondent/contractor intended to
wrongfully thwart/prevent appeal and to violate more stringent state privacy laws.
Petitioner relied on the respondent/contractor’s representations that appeal was not
necessary as the respondent/agent intended. The physician had no knowledge that the
respondent/contractor’s representations were untrue. The respondent/contractor’s
misconduct was relied upon to the detriment of the patients’ and the physician’s
individual, privacy, and/or property rights. The physician should not be punished for
complying with applicable law. “A physician acts ethically when she provides
confidential information to others ... as authorized by the patient.” SCBME v.
Hedgepath, 480 S.E.2d 724 (S.C. 1997). Conversely, the
respondent/contractor/subcontractor should not be unjustly enriched for wrongdoing.
25

XVI. The physician’s good faith efforts.

The petitioner-physician “did not know and could not reasonably have been
expected to know” that respondent would deny claims for medically necessary services
rendered in good faith without prior notice. Respondent failed to provide notice and
failed to provide a valid HIPAA Business Associate Agreement. As such, respondent.
contractor, and/or subcontractor(s) were not authorized to access PHI. Petitioner timely
notified the respondent/contractor/subcontractor of the applicable law without any
response, suggesting respondent/contractor/subcontractor knew or should have known of
the wrongdoing. See- SCMA v. Thompson, 327 F.3d 346, 349 (4th Cir. 2003), cert, denied
540 U.S. 981, 124 S. Ct. 464 (2003). Through no fault of the provider, who relied in good
faith on the plain language of the applicable statute, on the usual and customary practice
over years, on the advice of multiple attorneys, and on the attached Arnold & Porter
opinion letters, the physician did not know and could not reasonably have been expected
to know that respondent would not cover the services rendered in good faith to
established and long-time patients as well as new patients; therefore, waiver is
requested. Waiver is also requested pursuant to the above-referenced change of position
by the DOJ because the DOJ now asserts the ACA is unconstitutional which supports the
petitioner-physician’s good faith assertion that respondents’ wrongdoing herein is
unconstitutional. Waiver is also requested pursuant to Executive Order No. 1, dated
January 20, 2017, for the ACA (Affordable Care Act) penalty herein and for respondent’s
26

wrongful taking of petitioner’s fees for medically necessary services rendered in good
faith without prior notice. The physician should not be punished for complying with
applicable law. Accordingly, respondents’ motions should be denied.

XVII. The tort of breach of confidentiality/privacy.

The HIPPA Privacy Rule incorporates State law if it provides greater privacy
protection for the individual who is the subject of the individually identifiable health
information. 45 C.F.R. § 160.203. “State law means a constitution, statute, regulation,
rule, common law, or other State action having the force and effect of law.” 45 C.F.R. §
160.202. As such, the HIPPA Privacy Rule anticipates and incorporates South Carolina
law including, but not limited to, the tort of breach of confidentiality/privacy. The tort of
breach of confidentiality/privacy in South Carolina confirms the need for “express written
consent of the patient” under local law. See- Meetze v. Associated
Press, 230 S.C. 330, 95 S.E.2d 606 (1957). Further, established case law provides that
“(a) physician acts ethically when she provides confidential information to others ... as
authorized by the patient.” SCBME v. Hedgepath, 480 S.E.2d 724 (S.C. 1997). The
physician should not be punished for complying with applicable law. Accordingly,
respondents’ motions should be denied.

XVIIL The State Constitution provides the right of privacy.

The HIPPA Privacy Rule incorporates State law if it provides greater privacy
27

protection for the individual who is the subject of the individually identifiable health
information. 45 C.F.R. § 160.203. “State law means a constitution, statute, regulation,
rule, common law, or other State action having the force and effect of law.” 45 C.F.R. §
160.202. As such, HIPPA’s Privacy Rule anticipates and incorporates South Carolina law
including, but not limited to, the right of privacy contained in the South Carolina
Constitution. The South Carolina Constitution is one of approximately ten state
constitutions which expressly provides the right of privacy. S.C. Const, art. I § 10. If
HIPAA’s Privacy Rule had not incorporated the more stringent protections under state
law, it could be found unconstitutional on its face; failure of respondent to incorporate the
more stringent protections under state law is a systematic policy and procedure of
unconstitutional application of HIPPA’s Privacy Rule in South Carolina. Respondent
ignores the plain language of the more stringent state laws in South Carolina.
Respondents’ systematic wrongdoing and unconstitutional policies and procedures of
interpretation and application of HIPAA’s Privacy Rule defeat and/or thwart
Congressional intent to preserve more stringent state privacy laws and to grant express
legislative rights to patients under HIPAA’s Privacy Rule then in effect. Specifically, the
R&R is reversible based on clear error regarding statutory construction and the failure to
consider the plain language of applicable more stringent state privacy law as
acknowledged, represented, and embraced by the Secretary, HHS, and then Respondent’s
Counsel Azar in the case of SCMA v. Thompson, 327 F.3d 346 (4th Cir., 2003), cert,
denied 540 U.S. 981, 124 S. Ct. 464 (2003) with Terry Richardson on the other side for
SCMA. Accordingly, the petitioner respectfully requests reversal.

28

XIX. The AU erred in dismissing claims in Attachment A.

Further, it is respectfully submitted that the ALJ erred in dismissing claims in
Attachment A due to no redetermination. In fact, re determination was requested, and
the record reflects that Respondent thwarted review and wrongfully prevented
redetermination by representing that the request for review was not necessary. See
Footnote 1, supra. Similarly, review of multiple claims with the same issue is allowed and
review of the claims herein involves the same issue. The physician’s timely request for
the Respondent to produce copies of relevant documents and/or EOB’s to which the
physician would not otherwise have access was denied. The claims in Attachment A
represent covered services. Statutory construction is one of several exceptions to the
requirement that parties exhaust administrative remedies. McDonald v. Centra, Inc., 946
F.2d 1059, 1063 (4th Cir. 1991). Statutory construction provides subject matter
jurisdiction for the Attachment A claims, which should not be dismissed.

XX. Specifically, the R&R is reversible based on clear error regarding statutory
construction and the failure to consider the plain language of applicable state law.

As a non-covered entity under HIPAA, the physician’s practice is subject to the
same law in effect before the HIPAA Privacy Rule was enacted. Local law in South
Carolina provides^

29

Except as otherwise provided by law (with limited exceptions none of which apply here), a
physician shall not honor a request for release of copies of medical records without the
receipt of express written consent of the patient or person authorized by law to act on
behalf of the patient. S.C. Code 44_115_40 (emphasis supplied).

The plain language of the statute requires Respondent to provide express written consent
of the patient for release of copies of medical records. Respondents failed to comply with
applicable state law by failing to provide express written consent. PHI is the patient’s
information, not the physician’s, and the petitioner physician is not allowed by law to
release copies of medical records unless Respondent provides express written consent.
The letter and spirit of the law should be construed in the patients’ favor as patients are
the intended beneficiaries. The physician is happy to comply with authorization pursuant
to applicable local law. Specifically, the R&R is reversible based on clear error regarding
statutory construction and the failure to consider the plain language of applicable state
law as acknowledged, represented, and embraced by the Secretary, HHS, and then
Respondent’s Counsel Azar in the case of SCMA v. Thompson, 327 F.3d 346 (4th Cir.,
2003), cert, denied 540 U.S. 981, 124 S. Ct. 464 (2003). Accordingly, reversal of the lower
court orders is respectfully requested.

30

CONCLUSION
WHEREFORE petitioner respectfully requests that this Court grant the petition
for writ of certiorari.

Respectfully submitted,

/ o

2, o

(clpmes
FOB 187
Sulhvans Island
843.883.3010

31

'29482-0187

o

